 Office of Inspector General
     Audit Report


MARAD HAS TAKEN STEPS TO DEVELOP A
 PORT INFRASTRUCTURE DEVELOPMENT
   PROGRAM BUT IS CHALLENGED IN
MANAGING ITS CURRENT PORT PROJECTS
         Maritime Administration

       Report Number: CR-2013-117
       Date Issued: August 2, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: MARAD Has Taken Steps To Develop                                     Date:    August 2, 2013
           a Port Infrastructure Development Program but Is
           Challenged in Managing Its Current Port Projects
           Report No. CR-2013-117

  From:    Mitchell Behm                                                             Reply to    JA-50/JA-60
                                                                                     Attn. of:
           Assistant Inspector General for Rail, Maritime,
             Hazmat Transport, and Economic Analysis
           Mary Kay Langan-Feirson
           Assistant Inspector General for Acquisition and
             Procurement Audits

    To:    Maritime Administrator

           In 2003, the Maritime Administration (MARAD) was authorized to administer
           funds for developing and modernizing the Port of Anchorage, the main seaport in
           Anchorage, AK. 1 The Port of Anchorage Intermodal Expansion Project—a
           partnership with the Port and the Municipality of Anchorage—is ongoing, and
           there have been significant setbacks, including construction problems and
           schedule delays.

           MARAD has since been authorized to administer two other port projects: the
           multi-port Hawaii Harbors Infrastructure Expansion Program in 2005 2 and the
           Port of Guam Improvement Enterprise Program in 2008. 3 The Port of Guam
           project, which is estimated to receive up to $117 million in Federal funding, is part
           of a critical construction program that will support the relocation of U.S. Marine
           Corps forces from Japan to Guam. In 2009, MARAD was mandated to establish a




           1
             Consolidated Appropriations Resolution 2003, Pub. L. No. 108-7 § 626 (Feb. 20, 2003).
           2
             Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users of “SAFETEA-LU,” Pub. L.
           109-59 § 9008 (Aug. 10, 2005).
           3
             Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, Pub. L. No. 110-417 § 3512 (Oct. 14,
           2008).
                                                                                                             2


Port Infrastructure Development Program (PIDP) for the improvement of port
facilities. 4

The setbacks with the Port of Anchorage project have raised concerns about
MARAD’s ability to manage its port projects. Given MARAD’s central role, we
evaluated the Agency’s execution of its port infrastructure development
responsibilities. Specifically, we evaluated MARAD’s (1) oversight and risk
management of port infrastructure development projects, and (2) oversight of port
infrastructure projects’ contract planning and administration.

We conducted this audit in accordance with generally accepted Government
auditing standards. To conduct our work, we evaluated MARAD’s project
oversight, risk management, document management, and contract management
practices for its Port of Anchorage, Hawaii Harbors, and Port of Guam projects.
We used the Port of Anchorage project as a primary case study because it is
MARAD’s first port project, which it started managing 10 years ago. In addition,
we interviewed MARAD and port officials and reviewed contract files for all three
ports. Exhibit A contains the full details of our scope and methodology.


RESULTS IN BRIEF
MARAD did not establish effective oversight mechanisms when it initiated its
port infrastructure development responsibilities. MARAD narrowly interpreted
statutory requirements, which state that appropriated amounts for the Port of
Anchorage and Hawaii Harbors projects shall be “transferred to and administered
by” the Maritime Administrator. According to MARAD officials, in the absence
of clear statutory guidance, MARAD delegated authority for project construction
and management through Memorandums of Agreement (MOAs) with the local
authorities in Anchorage, Hawaii, and Guam. In doing so, MARAD did not (1)
adequately define its port project oversight responsibilities or provide guidance to
contractors for developing Program Management Plans (PMPs); (2) establish a
sound risk management process consistent with industry best practices; or (3) have
a process to systematically store, maintain, and track project progress and funds.
For example, MARAD did not develop a risk management process for the Port of
Anchorage project until almost 7 years after the project began, and the Hawaii
Harbors project still does not have one. MARAD has recently taken steps to more
clearly define its role in developing and overseeing the Port of Guam project
including establishing a risk management process that includes all elements
recommended by industry standards. MARAD has also taken steps to develop a


4
  National Defense Authorization Act for Fiscal Year 2010, Pub. L. No. 111-84 § 3512 (Oct. 28, 2009); 46 United
States Code Annotated (U.S.C.A.) § 50302.
                                                                                                                  3


PIDP, which could provide a framework for ongoing and future port infrastructure
projects, but has not yet completed it.

MARAD did not effectively manage its port project contracts. Between 2003 and
2011, the Port of Anchorage project’s cost estimate grew over four and a half
times from $211 million to $1 billion, with scheduled completion slipping 8 years.
According to MARAD officials, prior to 2011 the Agency’s leadership made a
policy decision that abdicated programmatic and technical control to local port
officials which contributed to problems with the project. 5 We found that the Port
of Anchorage project also had significant contracting problems stemming from
MARAD’s inadequate planning, lack of reliable cost estimates, and
noncompliance with Federal contracting requirements when awarding and
administering the port contracts. Notably, we found that MARAD acted contrary
to the intent of the Small Business Administration’s (SBA) 8(a) program 6 by
steering the first Port of Anchorage contract to the Port’s preferred firm. We did
not identify contract award issues at the Port of Guam and Hawaii Harbors
projects, which were awarded several years after the first Port of Anchorage
contract; however, we found weaknesses regarding MARAD’s contract
management. For example, MARAD did not establish contract administration
plans for any of its port projects to ensure proper monitoring of the contracts.

We are making a series of recommendations to improve MARAD’s management
of its port infrastructure development projects.


BACKGROUND
Congress directed MARAD to administer funding for the Port of Anchorage,
Hawaii Harbors, and Port of Guam projects. In 2009, Congress also directed
MARAD to develop a PIDP. According to the legislation, the PIDP is to (1)
receive funds provided for the project; (2) coordinate with other Federal agencies
to expedite the improvement of port facilities, to increase port security, or to
provide greater access to port facilities; (3) coordinate all reviews or requirements
with appropriate local, State, and Federal agencies; and (4) provide technical
assistance to port authorities as needed for project planning, design, and
construction. The law also allows for the creation of a fund, which is to be used to
carry out projects under the PIDP.


5
  According to MARAD officials, the Agency took programmatic and technical control of the project in January 2011
and implemented a series of oversight, management, planning, and risk mitigation measures. However, the MOA
MARAD used to implement these measures expired May 2012. Currently, there is no MOA for the Port of Anchorage
project.
6
  The SBA 8(a) program was established to assist eligible small businesses that are owned and controlled by socially
and economically disadvanged individuals to compete in the American economy through business development.
                                                                                                                 4


To date, MARAD has received over $263 million in Federal funding for port
infrastructure development projects from Agencies such as the Department of
Defense (DOD), the Federal Transit Administration (FTA), and the Federal
Highway Administration (FHWA). The FTA funds and some FHWA funds
required matching funds from the Port of Anchorage.

Key port project stakeholders include MARAD, State and local authorities, and
contractors. For each port project, MARAD and port stakeholders developed
Memorandums of Agreement (MOA), which are intended to outline stakeholders’
roles, detail management procedures, and help ensure accountability. MARAD
also called for the development of PMPs, planning agreements that should capture
project stakeholder responsibilities. Table 1 provides a summary of the port
infrastructure development projects.

Table 1. Summary of Port Infrastructure Development Projects

Port project                   State or local stakeholders                                         Federal funding
Port of Anchorage              Municipality of Anchorage and Port of Anchorage                         $139 million
Hawaii Harbors                 State of Hawaii Department of Transportation                              $8 million
                                                                                               a
Port of Guam                   Government of Guam and Port Authority of Guam                   up to $117 million
a
    The $117 million includes $64 million in requested U.S. Department of Agriculture loans.
Source: MARAD

Between May 2003 and April 2010, MARAD awarded four contracts for its three
port projects—including two for the Port of Anchorage project (see exhibit B for a
detailed summary of the port project contracts). Because MARAD awarded
contracts for these projects, MARAD is responsible for contract oversight and
compliance with relevant contracting laws and regulations, such as the
Competition in Contracting Act of 1984 and the Federal Acquisition Regulation
(FAR), as well as best practices for Government procurement.


MARAD LACKED EFFECTIVE OVERSIGHT MECHANISMS WHEN
IT EXECUTED ITS PORT INFRASTRUCTURE DEVELOPMENT
RESPONSIBILITIES
MARAD adopted a narrow interpretation of its statutory requirements for port
infrastructure development, one of a number of initial missteps the Agency made
when executing its responsibilities. In addition, MARAD did not until recently (1)
adequately define its port project oversight responsibilities or provide guidance to
contractors for developing PMPs; (2) establish a sound risk management process;
or (3) have a process to systematically store, maintain, and track project progress
                                                                                    5


and funds. Finally, MARAD has taken steps to develop a PIDP, which could
provide a framework for ongoing and future port projects, but has not yet
completed it.


MARAD Narrowly Interpreted Its Statutory Requirements for Port
Infrastructure Development at the First Two Port Projects
MARAD narrowly interpreted its statutory responsibilities at the Port of
Anchorage and Hawaii Harbors projects by limiting its role to obligating and
distributing funds for project tasks. The statute required that appropriated funds for
the Port of Anchorage project shall be “transferred to and administered by the
Administrator of the Maritime Administration.” These provisions do not provide
additional details on how MARAD should execute its responsibilities. In the
absence of additional details, MARAD adopted a narrow interpretation of its
responsibility to “administer the project.” Rather than take on a comprehensive
role in developing and overseeing the port infrastructure projects, MARAD’s main
role has, until recently, been limited to obligating and distributing funds to
contractors for project tasks, such as project oversight, program management,
engineering, design, and construction. In contrast, FTA, a major Department of
Transportation (DOT) agency responsible for overseeing mass transportation
funding, outlines a more defined Federal role in project development and
management, specifically regarding oversight. According to FTA guidance,
project management oversight is a continuous review and evaluation to ensure that
a project complies with statutory, administrative, and regulatory requirements and
is completed on time and within budget. MARAD’s flawed execution of its port
infrastructure development responsibilities, due in part to its narrow interpretation
of the law, has led to significant setbacks at the Port of Anchorage project and has
contributed to construction problems and schedule delays.

The statutory authority for the Hawaii Harbors project also does not specify how
MARAD should execute its port infrastructure development responsibilities. It
states that the appropriated amounts shall be transferred and administered by the
Maritime Administrator and that appropriated funds for the project are “subject
only to such conditions and requirements as may be required by the Maritime
Administration.” 7 As with the Port of Anchorage project, MARAD narrowly
interpreted its responsibilities for the Hawaii Harbors project and has relied on the
contractor to perform much of the project implementation, including oversight.

Compared to the statutory authorities for the Port of Anchorage and Hawaii
Harbors projects, the authorizing legislation for the Port of Guam project provides
more detail regarding MARAD’s responsibilities. Specifically, it authorizes the

7
    SAFETEA-LU.
                                                                                                           6


Secretary of Transportation, acting through the Maritime Administrator, to
establish a Port of Guam Improvement Enterprise Program to provide for the
planning, design, and construction of projects. It also grants the Maritime
Administrator certain authorities in carrying out the program, such as the authority
to provide for coordination among governmental agencies to expedite review
processes and to provide technical assistance to the Port of Guam as needed. 8 As
discussed in this report, MARAD has taken a more proactive role in executing its
responsibilities for the Port of Guam project.


MARAD Has Recently Defined Port Project Oversight Responsibilities
To Ensure Agency and Stakeholder Accountability
MARAD’s earlier port project MOAs did not include major oversight measures
that clearly defined the Agency’s and other stakeholders’ project oversight
responsibilities. However, port project responsibilities are better defined in
MARAD’s most recent port project MOA, dated November 2011. According to
FTA and FHWA—other DOT Operating Administrations that oversee large
infrastructure projects—establishing well-defined project oversight responsibilities
and documented procedures at the outset of a project is critical to ensuring
accountability for monitoring scope changes and preventing cost overruns. 9
MARAD also did not establish guidance on developing PMPs and does not have
evidence that it approved them. As a result, the PMPs for the port projects did not,
until recently, include well-defined project roles and responsibilities.

Port Projects’ Memorandums of Agreement Did Not Initially Include Major
Oversight Measures
The MOAs for the Hawaii Harbors and Port of Guam projects and the original
MOA for the Port of Anchorage project did not include sufficient oversight
measures that would determine how MARAD and other stakeholders would
oversee the projects. Our review of the MOAs for the three port projects
determined that, although all of the MOAs (1) required stakeholders to meet
periodically, (2) gave MARAD the ability to execute documents to transfer
funding to the projects, and (3) granted MARAD the authority to provide technical
and subject matter expertise, they still lacked oversight measures that would
clearly define how MARAD and other stakeholders would oversee the projects
(see table 2). The 2011 MOA for the Port of Anchorage project includes more
major oversight measures than the earlier MOAs.


8
  Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, Pub. L. No. 110-417 § 3512 (Oct. 14,
2008).
9
  FTA’s Project Management Oversight Mission Statement; and FHWA’s Stewardship/Oversight Task Force Report,
Policy on Stewardship and Oversight, March 2001.
                                                                                       7


The original MOA for the Port of Anchorage project and the Hawaii Harbors
project MOA lacked key oversight measures, such as providing an on-site
representative or establishing project oversight teams. These oversight teams are
decision-making bodies that include all major stakeholders and provide overall
executive leadership, vision, policy, strategic objectives, and priorities for the
project. The teams also have responsibility for such things as managing project
scope, schedule, and budget.

MARAD revised its MOA for the Port of Anchorage project in November 2011
after major problems with the project were revealed to Agency officials and the
public. The revised Port of Anchorage MOA clarified and increased MARAD’s
oversight responsibilities and included additional measures essential to oversight.
The revised MOA fully empowers MARAD to provide overall executive
leadership, primarily by establishing a project oversight team called the Port
Oversight and Management Organization in which MARAD plays an active
decision-making role. These additional oversight mechanisms could have helped
MARAD to improve its management of the Port of Anchorage project had they
been implemented much earlier in the project. For example, MARAD and port
officials told us that an on-site representative with the appropriate authority could
have provided program direction and approved or disapproved of spending and
construction decisions in a timely manner.

Table 2. Summary of Major Oversight Measures Included in the
Port Project MOAs
                                               Port of     Hawaii    Port of   Port of
                                               Anchorage   Harbors   Guam      Anchorage
  Major oversight measures included in         MOA         MOA       MOA       MOA
  the port project MOAs                        (2003)      (2006)    (2008)    (2011)

1 Port Authority provides overall program      Yes         Yes       Yes       No
  requirements and direction for the project
2 The State/locality/port has the authority    Yes         Yes       Yes       No
  to designate points of contact for
  direction and management
3 State/locality/port is responsible for       No          No        No        Yes
  developing port master plan
4 All stakeholders have the shared             Yes         Yes       Yes       Yes
  responsibility to meet periodically to
  discuss project progress and
  development
5 MARAD has the responsibility to execute      Yes         Yes       Yes       Yes
  documents to transfer monies from other
  Federal sources to a project
                                                                                       8


                                               Port of     Hawaii    Port of   Port of
                                               Anchorage   Harbors   Guam      Anchorage
  Major oversight measures included in         MOA         MOA       MOA       MOA
  the port project MOAs                        (2003)      (2006)    (2008)    (2011)

6 MARAD is specified as the designated         No          No        Yes       No
  lead Federal Agency for the program to
  ensure adherence to applicable Federal
  and local laws and regulations on
  appropriations, acquisitions, and grants
7 A project oversight team is established to   No          No        No        Yes
  provide vision, policy, and priorities and
  outline the various stakeholders’
  responsibilities
8 MARAD has the authority to provide           Yes         Yes       Yes       Yes
  technical and/or subject matter expertise
9 MARAD provides an on-site                    No          No        No        Yes
  representative
10 MARAD provides project records to the       No          No        No        Yes
   State/locality/port
11 All stakeholders share the responsibility   No          No        No        Yes
   to meet and develop a project financial
   plan of costs to complete work in PMP
Source: OIG analysis of port project MOAs


MARAD Did Not Establish Guidance on Developing Project Management
Plans, Including How To Define Roles and Responsibilities
MARAD did not provide guidance to contractors on developing PMPs, project
planning documents that, among other things, define project stakeholder roles and
responsibilities. According to FHWA guidance—which MARAD officials stated
they use as project management criteria—PMPs should define the overall roles,
responsibilities, and relationships between public and private stakeholders and
define the management procedures and processes that will result in the major
project being completed on-time, within budget, and with the highest degree of
quality. MARAD tasked contractors with developing PMPs for the port projects
but did not provide them with guidance on this task. For example, MARAD did
not provide guidance on how to develop the project organizational chart, including
roles and responsibilities. Further, MARAD could not provide evidence that it
reviewed and approved the PMPs for the Port of Anchorage and Hawaii Harbors
projects. As of December 2012, MARAD has yet to establish guidance for
contractors on developing PMPs.

As a result, the PMPs did not adequately define project roles and responsibilities.
The PMP for the Port of Anchorage project only identified the contractor’s roles
and responsibilities and not those of MARAD or other project stakeholders. The
                                                                                  9


Hawaii Harbors project did not have a PMP at all. Although we found an
organization chart for the Hawaii Harbors project, it did not detail Agency and
stakeholder roles and responsibilities.

The Port Authority of Guam prepared an Implementation Plan for the Port of
Guam project, which stated that MARAD’s project role would be defined in a
subsequent Program Management, Oversight, and Procedures Manual. However,
when we reviewed the manual it was still in draft and did not document
MARAD’s and project stakeholders’ roles. In June 2012, after we raised these
issues, MARAD finalized a Program Management Manual for the Port of Guam
project, which clearly outlines the roles and responsibilities of MARAD and key
project stakeholders. The manual was reviewed and approved by all project
stakeholders and includes organizational charts that show the Agency’s
involvement at various project phases, which FHWA recommends to help ensure
accountability. Additionally, the manual establishes the Project Management
Oversight Organization, an oversight team that gives the Agency flexibility to
oversee all work performed.


MARAD Did Not Establish a Sound Risk Management Process Until
Projects Were Well Under Way
The Port of Anchorage and Port of Guam projects currently have risk management
processes that are consistent with industry best practices. However, MARAD did
not implement a risk management process at the Port of Anchorage project until
7 years after the project began, which was well after the start of construction. In
addition, the Hawaii Harbors project still lacks a risk management process.
Industry best practices call for establishing formal risk management policies and
procedures to provide an organized, systematic risk management process that
identifies, analyzes, and effectively mitigates risks to achieve program objectives.
The Project Management Body of Knowledge (PMBOK), a recognized guide for
the project management profession, outlines six elements of an effective risk
management process. Table 3 shows that all of the risk elements are currently in
place at the Port of Anchorage and Port of Guam projects, but none are in place at
the Hawaii Harbors project.
                                                                                      10


Table 3. Risk Management Elements Currently Incorporated Into
Port Projects’ Risk Management Processes
                                                      Port of     Port of   Hawaii
                                      a
      Risk management elements                        Anchorage   Guam      Harbors
1     Risk Management Plan. Defines how to            Yes         Yes       No
      conduct risk management activities
2     Risk Identification. Determines which risks     Yes         Yes       No
      may affect the project, and documents their
      characteristics
3     Qualitative Risk Analysis. Prioritizes risks    Yes         Yes       No
      by assessing their probability of occurrence
      and impact
4     Quantitative Risk Analysis. Numerically         Yes         Yes       No
      analyzes the effect of risks on project
      objectives
5     Risk Response Planning. Develops                Yes         Yes       No
      actions to enhance opportunities and to
      reduce threats to project objectives
6     Risk Monitoring & Control.                      Yes         Yes       No
      Implements risk response plans, tracks
      identified risks, monitors residual risks,
      identifies new risks, and evaluates risk
      process effectiveness
a
    Risk management processes recommended in PMBOK.
Source: OIG analysis of port project risk management plans

Although the risk management process for the Port of Anchorage project now
includes all risk elements, MARAD did not implement the process until January
2010. In addition, until February 2011, the initial process lacked a risk
management plan, which defines how risk management activities would be
conducted and includes elements such as defined project team roles and
responsibilities, project milestones, budget information, and timing. MARAD’s
risk management process for the Port of Guam project also includes all six risk
elements, but the Agency and all stakeholders did not formally approve the
process until June 2012—4 years after the MOA was signed. MARAD did not
develop a risk management process for the Hawaii Harbors project. According to
the PMBOK, risk exists the moment a project is conceived; therefore, moving
forward on a project without a proactive focus on risk management increases the
impact that risks can have on the project—and can potentially lead to project
failure.
                                                                              11


MARAD Did Not Have a Process To Systematically Store, Maintain,
and Track Project Progress and Funds at its First Two Port Projects
The Port of Anchorage and Hawaii Harbors projects did not have effective
systems or processes in place for documenting and reporting significant
transactions, events, and decisions. A document management system is a method
used to capture and organize these important project data. In addition, project
management best practices recommend implementing report performance
processes, which collect and distribute performance information, status reports,
progress measurements, and forecasts. 10 MARAD has implemented a system at
the Port of Guam project that is consistent with industry standards.

Although MARAD intended for the contractor to implement a comprehensive
management information system at the Port of Anchorage project, the effort was
never completed. According to the original statement of work for the project, the
contractor was tasked with developing and maintaining a secure web-based
management information system that would be accessible by MARAD, the Port,
and other agreed-to parties. The system would collect, manage, analyze, and
distribute key performance information, allowing management and technical staff
to plan and monitor work progress, identify issues early, and implement solutions
quickly. For example, the system was to provide schedules of meetings, project
status reports, information on needed recommendations, technical documents for
review, and budget information. However, this task only received partial funding
and was never completed.

In lieu of a comprehensive management information system, MARAD funded a
less robust system for the Port of Anchorage and Hawaii Harbors projects: a
contract management system to be used by all project stakeholders to document
and view contract task orders. However, MARAD deactivated the system
mid‐contract due to security concerns and did not replace it. According to
MARAD, the contract and project documentation for these projects is currently
archived because MARAD’s role in the design and construction for the projects
has ended.

Without a comprehensive management information system, MARAD had
difficulty providing some basic project management reports. For example, when
we asked for data on appropriated funds disbursed for the Port of Anchorage
project, the reports that MARAD supplied contained data discrepancies that we
were not able to reconcile. Given that the Port of Anchorage project had not been
appropriated funds since fiscal year 2010, we expected the reports to contain
consistent information. When we brought these discrepancies to the attention of
MARAD officials, they were also unable to reconcile the inconsistencies with any

10
     PMBOK.
                                                                                 12


reliable, system-generated reports. In addition, we requested project status reports
for the Port of Anchorage and Hawaii Harbors projects, but MARAD was only
able to provide a report for the Port of Anchorage project. Because MARAD
lacked an automated system with which to generate project status reports,
MARAD had to manually create the report, which took the Agency over 6 months
to complete.

In September 2012, MARAD and its port project contractors completed the
development of a comprehensive management information system for the Port of
Guam project. The tool, referred to as the Primavera Construction Management
System (PCMS), serves as MARAD’s document management and reporting
system. PCMS, a web-based system, will track project information by each job
task and will capture information such as communications (i.e. correspondence
and telephone records between project stakeholders); contract information (i.e.
cost worksheets and purchase orders); cost, budget, and schedule data; and quality
control information. It will also allow MARAD and port officials to produce daily,
weekly, and monthly reports based on the data entered into the system. Based on
MARAD’s demonstration of the system and our review of the procedure manual
and system description, the PCMS is consistent with industry standards. MARAD
officials told us that future port projects will also use PCMS for project document
management and reporting needs.


MARAD Has Taken Steps To Develop a Congressionally Mandated
Port Infrastructure Development Program But Has Not Completed It
According to MARAD officials, the Agency has begun to develop a PIDP;
however, they have not provided a date by which it would be completed. MARAD
officials provided us with the Agency’s proposed framework for the PIDP, which
was presented at a port association conference in January 2012. The framework,
which is outlined in table 4, includes three categories of MARAD’s involvement
in port infrastructure projects. However, as of December 2012, MARAD officials
have not provided us with any additional documentation indicating the status of
the proposed framework nor any policies or procedures for implementation.
                                                                                                                13


Table 4. MARAD’s Proposed Port Infrastructure Development
Program Framework
Role                   Applicable to        Level of MARAD involvement
ENGAGEMENT             All ports            Low Federal oversight. MARAD would serve as an advocate
                                            by providing guidelines and data and would provide direct
                                            support to individual ports upon request.
FINANCING              Limited number       Moderate Federal oversight. MARAD would provide direct
                       of ports             funding support via existing and future programs.
PROJECT                Very few ports       High Federal oversight and project assistance where unique
MANAGEMENT                                  Federal interest exists. MARAD would co-manage the
                                            project with the port.
Source: MARAD

MARAD officials told us that the authorizing legislation did not require the
Agency to have a program in place for the Port of Anchorage, Hawaii Harbors, or
Port of Guam projects, so they are being used as pilot projects to determine
MARAD’s future role in port infrastructure development. MARAD officials stated
that, because Congress has not yet appropriated funding for the PIDP, it is difficult
to predict a date by which the Agency would be able to complete the structure for
a program mandated 4 years ago. 11

In addition, we reviewed MARAD’s PIDP funding requests, and it appears to us
that the requests were inconsistent, unclear, and insufficient to determine the
PIDP’s needs. The PIDP funding requests were minor components of larger
funding requests for “Intermodal System Development” or “Headquarters
Operations,” and most did not include language related to port expansion or
development. In addition, between 2009 and 2013 the Agency’s funding requests
for the PIDP ranged widely from approximately $3.7 million to $63 million. It is
unclear how the Agency arrived at these figures, as the requests did not specify
how MARAD would use the funding to develop a PIDP. For example, MARAD
did not detail its staffing or resource needs or describe the PIDP’s intended goals.

Without a PIDP, MARAD lacks institutionalized policies and procedures to
effectively oversee ongoing and future port infrastructure projects. While the
legislation does not specifically require MARAD to have a program in place for
the Port of Anchorage, Port of Guam, or Hawaii Harbors projects, lessons learned
from these projects could provide the framework for putting in place key program
elements for MARAD’s PIDP—and mitigate cost, schedule, and performance
problems similar to the ones MARAD has faced on the Port of Anchorage project.


11
   MARAD did receive some funding related to the port projects in the form of administrative fees. These
administrative fees are not to exceed 3 percent of the amounts appropriated to the fund for a fiscal year and may be
used for the Maritime Administrator’s administrative expenses.
                                                                                                                14


MARAD DID NOT EFFECTIVELY MANAGE ITS PORT PROJECT
CONTRACTS
Effective acquisition management helps ensure that the Government gets what it
pays for. However, our review determined that MARAD did not effectively
manage its port project contracts. MARAD did not conduct adequate planning and
entered into port project contracts without reliable cost estimates. In addition,
MARAD did not comply with Federal contract requirements when awarding and
administering the Port of Anchorage contracts. At all three port projects, MARAD
did not provide effective contract administration.


MARAD Did Not Conduct Adequate Planning for Its Port Projects
Sound planning is important to establish a strong foundation for successful
acquisition outcomes. However, MARAD’s planning efforts for its port project
contracts were inadequate. MARAD used contracts instead of grants or
cooperative agreements (known collectively as assistance agreements) to
administer the port projects—without documenting its rationale. MARAD also did
not require written agreements from port project stakeholders regarding matching
funds. Finally, MARAD did not prepare required acquisition plans for the Port of
Anchorage contracts, and the acquisition plans for the Hawaii Harbors and Port of
Guam projects were missing critical documentation and contained errors that call
into question the accuracy of the plans.

MARAD Used Contracts Instead of Assistance Agreements To Administer
the Port Projects Without Documenting Rationale
MARAD chose to use contracts to administer Federal funds for all three port
projects rather than assistance agreements. According to MARAD and the
documentation it provided, the Agency did not consider using assistance
agreements when planning the Port of Anchorage project. In addition, MARAD
did not provide us with any contemporaneous explanation as to its reasons for
awarding contracts for the Hawaii Harbors and Port of Guam projects.

The Federal Grant and Cooperative Agreement Act 12 provides criteria for agencies
in selecting the most appropriate legal instruments but also allows an agency to
decide when the use of a contract is appropriate. The Act specifies that contracts
should be reserved for acquiring goods or services that directly benefit the
Government, while assistance agreements should be used to accomplish public



12
   The Federal Grant and Cooperative Agreement Act provides criteria for choosing an appropriate legal instrument
(contract, grant, or cooperative agreement). Pub. L. No. 95–224 (Feb. 3, 1978) [codified at 31 U.S.C.A § 6301–6308].
                                                                                                                      15


objectives. 13 Even though the Port of Anchorage project primarily benefits the
public, MARAD opted to award contracts for the project.

An agency’s choice of legal instrument is significant because contracts can expose
the Government to certain risks—such as contractor claims. For example,
MARAD recently settled two claims with the contractor for the Port of Anchorage
project for $11.3 million. These claims cited problems such as changing contract
requirements, delayed work, and an alleged defective design. 14 In contrast, under a
Federal assistance agreement, an agency is not subject to these risks for contractor
claims because there is no privity—or direct contractual relationship—between the
Government and the recipient’s contractor. 15 If MARAD had awarded an
assistance agreement for the Port of Anchorage project, it would not be subject to
contractor claims.

In addition, contracts require direct Federal oversight, as well as compliance with
Federal contracting laws, regulations, and best practices. 16 However, MARAD has
not provided the level of oversight required to administer its Federal port project
contracts—most notably for the Port of Anchorage project. MARAD believed that
the Port of Anchorage 17 had full programmatic and technical control of the project
and stated that it made decisions based on Port officials’ requests regarding project
design, scope, and contractor selection. MARAD also pointed to the 2003 MOA,
which states that the Municipality was responsible for providing overall program
requirements and direction to MARAD. Nevertheless, once the Agency decided to
award a Federal contract for the Port of Anchorage project, it became responsible
for ensuring that Federal acquisition rules were followed and for providing
adequate planning, estimating, and oversight of the contract.

MARAD Did Not Require Written Agreements for Matching Funds
For the Port of Anchorage project, MARAD used funds from FTA and FHWA
grant programs with matching fund requirements but did not require local funders,
such as the Port of Anchorage and the State of Alaska, to agree in writing to
provide the required matching funds. MARAD stated that funders have since far
exceeded the matching fund requirements. However, without a written agreement
upfront, MARAD risked not receiving adequate matching funds. While MARAD

13
    31 U.S.C.A. § 6305.
14
    On March 8, 2013, the Municipality filed a separate suit against Integrated Concepts and Research Corporation
(ICRC), PND Engineers, and CH2M Hill Alaska (formerly known as VECO), alleging breach of contract (by ICRC),
professional negligence (by ICRC, PND and VECO), and negligence (by ICRC and PND).
15
   “Privity of contract” is the relationship between parties to a contract allowing them to sue each other but preventing a
third party from doing so. Black’s Law Dictionary.
16
     Several Federal contracting regulations, including the FAR, set forth criteria for planning, awarding, and
administering Government contracts.
17
    The Port of Anchorage is an enterprise department of the Municipality of Anchorage. As an enterprise department,
the Port creates enough revenue to support its operations and pay fees to the Municipality annually.
                                                                                  16


has already spent all Federal funding for the Port of Anchorage project,
weaknesses in the Agency’s practices for matching fund requirements could
impair receipt of matching funds on future port projects.

Weaknesses Exist in MARAD’s Acquisition Planning
Acquisition plans are important to help ensure the Government meets its need in
the most effective, economical, and timely manner. Accordingly, the FAR and the
Transportation Acquisition Manual (TAM) require agencies to prepare acquisition
plans and document the basis for how the plans were developed. However,
MARAD did not prepare acquisition plans for the Port of Anchorage contracts,
even though the TAM requires written acquisition plans consistent with the FAR
for acquisitions greater than $20 million. 18 MARAD stated that it conducted
acquisition planning on a task order basis and provided a task order approval
request prepared by its contractor as an example. However, the document does
not address FAR-required elements for acquisition plans.

The acquisition plans for the Hawaii Harbors and Port of Guam contracts met
some FAR requirements, such as documenting security concerns and acquisition
cycle milestones (e.g., issuing the solicitation, negotiation, and approving the
contract). However, the plans contained identical statements regarding the
projects’ budget and market research without adequate supporting documentation.
We question these identical statements because the projects are unique—having
different sizes, locations, and requirements. For example, the Port of Guam project
involves 1 port, while the Hawaii Harbors project, located 3,800 miles away, may
include work at up to 10 ports. In addition, the Hawaii Harbors project includes
added work requirements, such as new geographic information systems and an
expansion of terminal yard space. Yet the acquisition plans for these two projects
contained the following:

• Both plans contain the identical budgeting statement: “it is anticipated that the
  annual costs for environmental, design/engineering, and construction efforts
  will vary between $10M and $30M.” MARAD did not provide FAR-required
  support for how it derived these estimates, so it was unclear why the estimates
  would be the same for both ports.

• Identical market research statements in the plans indicate that MARAD
  performed the same market research for both port projects. Both plans state
  that “at least six firms” were identified as potential bidders and stated that
  “each has provided evidence of prior experience with management of major
  infrastructure development projects at marine facilities.” However, the plans
  contained no other identifying information, such as names or evidence of

18
     With certain exceptions. See TAM 1207.103, “Agency Head Responsibilities”.
                                                                                                                 17


       experience. Although MARAD provided documentation intended to support
       these statements when we requested them for our review, the documents were
       dated 2 months after the acquisition plans were approved, suggesting that they
       were not used during the planning process. 19 According to the FAR,
       acquisition plans must document market research results in a manner
       appropriate to the size and complexity of the acquisition.

Moreover, we found errors in the projects’ acquisition plans that suggest MARAD
prepared the plans in a haphazard manner and raise questions about the accuracy
of the plans. For example, the acquisition plan for the Hawaii Harbors project
mistakenly references the Port of Guam. In addition, MARAD approved the
acquisition plans for both projects on the same day, but some additional
supporting documents for both projects are dated 2 months later—indicating that
MARAD approved the plans before the supporting documents were finalized.


MARAD Entered Into Contracts Without IGCEs or Reliable Cost
Estimates
MARAD did not develop Independent Government Cost Estimates (IGCEs) for
the port contracts or ensure that all three port projects’ cost estimates were
reliable. IGCEs, which are required by both Federal and DOT acquisition
regulations, 20 are detailed estimates of what a reasonable person should pay to
obtain the best value for a product or service. A well-supported IGCE is a valuable
tool for price negotiations and can lead to more accurate projections of budget
requirements. In the absence of reliable cost estimates for the port projects,
MARAD could have used IGCEs to establish dependable estimates.

MARAD awarded both Port of Anchorage contracts without IGCEs. MARAD
officials acknowledged that an IGCE was not prepared for the first Port of
Anchorage contract. For the second contract, MARAD provided a document that it
described as an IGCE, but the document did not meet TAM IGCE requirements
because it did not include the specific cost elements or methodology used. In
addition, MARAD initially told us that its staff prepared this document but later
said that the contractor ICRC prepared it. Moreover, MARAD did not provide
evidence that the Agency validated ICRC’s document.

MARAD stated that it also relied on Defense Contract Audit Agency (DCAA)
audits and the contractor’s task order determinations to determine price
reasonableness for the second Port of Anchorage contract. However, MARAD was
unable to demonstrate how it used these alternative means to establish a fair and
reasonable price for the contract. Further, the DCAA audits MARAD provided

19
     The documentation named 8 firms for the Hawaii Harbors project and 13 firms for the Port of Guam project.
20
     FAR 36.203 and TAM 1215.404-70.
                                                                                                18


either predated the second Port of Anchorage contract by 3 to 4 years or were
limited in scope. For example, for one audit, MARAD requested that DCAA
review only certain elements of ICRC’s proposal, which represent just 6 percent of
the contract’s $704-million maximum award value. In addition, ICRC submitted
direct labor and indirect rate data that covered just 7 months of the proposed
7-year contract period and omitted all subcontractor costs, which further limited
DCAA’s review. According to DCAA’s report, data for the entire performance
period is required to establish reliable cost estimates.

For the Port of Guam and Hawaii Harbors contracts, MARAD officials initially
said that IGCEs were prepared for both contracts but later said that IGCEs were
not prepared.

In addition, the port projects’ cost estimates are unreliable. For the Port of
Anchorage project, MARAD’s records show that the cost estimates for the project
grew significantly between 2003 and 2011 (see figure 1).

Figure 1. The Port of Anchorage Project’s Cost Estimates
Increased Significantly Between 2003 and 2011

                              $1,200
Cost estimate (in millions)




                              $1,000                               According to MARAD
                                                                   documentation from January 26,
                               $800
                                                                   2011, the Port of Anchorage
                                                                   project was estimated to cost at
                               $600
                                                                   least $1 billion—over four and a
                                                                   half times the original $211
                               $400
                                                                   million cost estimate.
                               $200

                                 $0
                                       2003   2004   2008   2011

Source: 2003 Port of Anchorage contract, 2005 Port of Anchorage contract modification, 2008
Port of Anchorage contract, and MARAD document (“Explanation of PIEP Project Cost
Increases”)

We could not determine how these estimates for the Port of Anchorage contracts
were derived because MARAD could not provide documentation showing who
developed the estimates or what factors were considered. MARAD contends that it
was the Port’s responsibility to plan and estimate the funding necessary to conduct
the project and that it relied on information from the Municipality to award the
contracts. According to MARAD officials, the Port estimated the project costs and
deliberately underreported them to ensure that funding for the project would be
approved. MARAD awarded the contracts without validating the Port’s estimates.
                                                                                                  19


Further, a new cost estimate must be developed for the Port of Anchorage project.
MARAD officials stated that alternatives need to be developed to replace the
current design based on a recent study conducted by the United States Army Corps
of Engineers in partnership with MARAD, the Port, and the Municipality. In
addition, MARAD representatives recently informed us that the Municipality is
considering scaling down the project to just over a third of the 2011 cost estimate.

MARAD also lacks adequate documentation to support the cost estimates for the
Hawaii Harbors and Port of Guam projects. With the exception of the port
estimate for the Port of Guam project, 21 MARAD could not provide
documentation showing who developed the various port project estimates or
explain why they doubled over time, as shown in table 5.

Table 5. Varying Cost Estimates for the Port of Guam and Hawaii
Harbors Projects
                                        Port of Guam                      Hawaii Harbors
Source                           Cost Estimate            Year      Cost Estimate          Year
       a
Port                                 $195 million         2007          $200 million   unknown

Acquisition Plan                     $400 million         2008          $200 million       2008
Maximum Contract
                                     $400 million         2010          $400 million       2009
Award Value
a
    According to MARAD, the Ports of Guam and Hawaii provided these figures.

Source: MARAD file documentation

Without supporting documentation, it is unclear why the cost estimates in the
acquisition plans and the maximum contract award values varied from the Port
estimates. Further, MARAD officials acknowledged that they did not
independently validate the cost estimates provided by the port stakeholders, as
they believed “there was no need to second-guess the estimates.”


MARAD Did Not Adhere to Federal Contracting Requirements When
Awarding and Administering the Port of Anchorage Contracts
MARAD acted contrary to the intent of SBA’s 8(a) Business Development
Program when it awarded the first contract for the Port of Anchorage project.
MARAD also did not comply with Federal regulations to terminate the first Port
of Anchorage contract when the contractor no longer met eligibility requirements.
In addition, under the project’s second contract, MARAD did not implement the
award fee plan or conduct award fee evaluations in accordance with Federal
21
  For the Port of Guam project, MARAD provided documentation showing that a contractor developed the
$195-million port estimate as part of the 2007 update to the Master Plan.
                                                                                                          20


regulations and contract terms. Further, MARAD limited competition on a design
subcontract by allowing the use of brand name technology without required
justification.

MARAD Acted Contrary to the Intent of SBA’s 8(a) Program When It
Awarded the First Port of Anchorage Contract
MARAD acted contrary to the intent of SBA’s 8(a) Business Development
Program by steering the first Port of Anchorage contract to the Port’s preferred
firm Integrated Concepts and Research Corporation (ICRC). ICRC, who did not
meet certain 8(a) eligibility requirements for sole source awards, wrote to
MARAD and port officials to suggest awarding the sole source contract to Koniag
Services, Inc. (KSI), a newly formed Alaska Native Corporation (ANC) with few
restrictions on the contracts it was able to receive. 22 In May 2003, MARAD
awarded the first $211 million Port of Anchorage contract to KSI—a firm that the
Port of Anchorage referred to as a “shell corporation.” Less than 9 months later,
MARAD transferred the contract to ICRC. Table 6 shows the sequence of events
surrounding MARAD’s award of the first Port of Anchorage contract.

Table 6. Events Surrounding the Award of the First Port of
Anchorage Contract
Date              Action
Sept. 2002        The Port of Anchorage indicated its preference for contractor ICRC as far back
                  as September 2002—8 months before the Port of Anchorage contract was
                  awarded.
Feb. 2003         The Port and ICRC met with MARAD to discuss awarding the contract to ICRC.
                  In addition, ICRC’s vice president wrote a letter to MARAD and port officials,
                  suggesting that MARAD could expedite the SBA approval process by awarding
                  a sole source contract to its sister company KSI and then transfer the contract
                  to a joint venture between KSI and ICRC. ICRC’s vice president wrote another
                  letter to MARAD’s director of acquisitions that provided step-by-step instructions
                  on obtaining SBA approval for the KSI contract, which according to ICRC would
                  allow MARAD to bypass a 2-3 month SBA review process for the proposed joint
                            a
                  venture.




22
  While procurements expected to exceed $3 million must normally be competed among eligible 8(a) firms, an ANC
was eligible to receive a sole source 8(a) contract award regardless of amount. As of 2011, the FAR requires
contracting officers to prepare a justification for each 8(a) ANC sole source contract over $20 million.
                                                                                                      21


Date              Action
May 2003          To begin work on the Port of Anchorage project while the contract was still under
                  negotiations, MARAD issued a letter contract for geotechnical sampling and
                  testing. MARAD accidentally awarded the letter contract to ICRC instead of KSI.
                  The next day, MARAD issued a modification to change the name to KSI. On May
                  30, 2003, MARAD officially awarded an 8(a) sole source contract to KSI.
                  Although ICRC was not a party to the sole source contract, ICRC’s chief
                  executive officer represented KSI during contract negotiations, and ICRC’s vice
                  president was listed as the principal-in-charge for the contract.
Aug. 2003         The Port of Anchorage wrote MARAD to express its dissatisfaction with KSI and
                  question KSI’s leadership. The Port of Anchorage described KSI as a “shell
                  corporation” and urged MARAD to novate (or transfer) the contract to ICRC.
Oct. 2003         MARAD notified KSI that it must produce invoices from an established
                  accounting system within 10 days or MARAD would terminate the contract for
                  default. KSI initially objected, stating that it used a reputable accounting software
                  package—in fact, the same package used by ICRC. The next day, KSI informed
                  MARAD that it would request permission to novate the contract to ICRC.
Feb. 2004         MARAD agreed to the transfer of the first Port of Anchorage contract to ICRC—
                  less than 9 months after awarding the contract to KSI.
a
 According to an October 2003 MARAD memorandum, SBA notified KSI that it would not approve a joint venture
agreement between KSI and ICRC because the contract had already been awarded to KSI.

Source: Contract files from the first Port of Anchorage contract

MARAD officials stated that they do not have enough information to comment on
the decisions surrounding the first Port of Anchorage contract because the event
occurred nearly a decade ago.

MARAD Did Not Comply With Federal Regulations To Terminate the First
Port of Anchorage Contract When ICRC Was Bought by a Large Business
MARAD did not comply with Federal regulations to terminate the first Port of
Anchorage contract when ICRC was acquired by a large company in June 2007.
Federal regulations require an agency to terminate an 8(a) contract if the small
business contractor is no longer owned or controlled by disadvantaged individuals.
The FAR also permits SBA to waive the termination requirement if the head of the
agency certifies that contract termination would severely impair the agency’s
program objectives. On September 4, 2007, MARAD asked for a waiver, but SBA
denied the request on September 19, 2007. SBA stated that allowing the 8(a)
contract to be transferred to a large business could jeopardize the integrity of the
8(a) program and establish a precedent.

According to MARAD officials, the contract was not terminated based on an
undocumented agreement with SBA to allow the contract to run its course. As
evidence of this agreement, MARAD officials cited a January 22, 2008, order in
which SBA dismissed ICRC’s appeal of its denial of a termination waiver.
However, the order did not expressly waive MARAD’s requirement to terminate
                                                                                                      22


or allow MARAD to continue the contract. Moreover, MARAD’s contract
documentation clearly shows that SBA had rejected MARAD’s request for a
termination waiver. Specifically, in the sole source justification for the second Port
of Anchorage contract, which was initiated the same day as SBA’s dismissal
order, MARAD stated that “in January 2008, the SBA declined to issue such a
waiver.” The justification also said that the purpose of the sole source contract was
“to take over the terminated previous contract.” MARAD’s own sole source
documentation for the second Port of Anchorage contract shows that the MARAD
officials executing the justification believed that the agency was in fact required to
terminate the first Port of Anchorage contract.

However, MARAD did not terminate the first Port of Anchorage contract and
allowed it to continue for more than 2 years after the award of the second Port of
Anchorage contract. MARAD also ordered additional work under the first
contract, despite Agency officials’ statements that no new work was ordered under
it. Specifically, MARAD issued two task orders under the first contract, with a
total initial value of almost $28 million. 23 Simultaneously managing two ICRC
contracts with similar statements of work could have led to problems with
oversight and management of the work.

MARAD Did Not Effectively Administer the Award Fee Provision for the
Second Port of Anchorage Contract
Award fees are financial incentives intended to motivate the contractor to achieve
the Government’s desired goals for a project. However, MARAD mismanaged its
administration of the contract’s award fee provision for the second Port of
Anchorage contract by not complying with contract terms and Federal award fee
regulations. 24

Award fee plans are important to establish the procedures for evaluating the
contractor’s performance for an award fee, including the award fee evaluation
periods and performance measures. However, MARAD did not complete an award
fee plan until nearly 2 years after the contract began. Because it took so long for
MARAD to implement an award fee plan, nearly half of the award fee evaluation
periods had ended without having in place any evaluation procedures or criteria to
assess the contractor’s performance. In addition, MARAD did not conduct its
award fee evaluations according to the award fee plan that it ultimately adopted.
MARAD also approved a $345,000 award fee payment to the contractor 372 days
late and without conducting a required evaluation to determine whether the
contractor’s performance warranted the fee (see table 7).

23
   MARAD added funding to those task orders 2 months after the second contract was awarded to increase the
maximum value to $105 million.
24
   FAR 16.404, FAR 16.405, and FAR 16.401; TAR 1252.216-72; TAR 1252.216-71.
                                                                                                               23


Table 7. Award Fee Evaluations Conducted Under the Second
Port of Anchorage Contract
                                                                                    No. of Days
                                    Evaluations          Award Fee                Fee Decisions
                                                                                               a
     Evaluation Periods             Completed            Approved                    Were Late

1    7/16/2008 - 6/30/2009          No                   Yes ($345,000)                       372
                                                                                                      During the first
2    7/1/2009 - 12/31/2009          Yes                  No                                   191     period, MARAD
                                                                                                      awarded a
3    1/1/2010 - 6/30/2010           Yes                  No                                   368     $345,000 fee
                                                                                                      without
4    7/1/2010 - 12/31/2010          No                   N/A                                  N/A     evaluating the
                                                                                                      contractor’s
5    1/1/2011 - 6/30/2011           No                   N/A                                  N/A     performance.

6    7/1/2011 - 12/31/2011          No                   N/A                                  N/A
a
  The award fee plan requires an award fee evaluation to be completed within 15 business days after
the end of the evaluation period.

Source: OIG analysis

According to MARAD’s award fee decision document for the first evaluation
period, evaluating the contractor’s performance so late after the fact would have
been difficult and time consuming, so the contracting officer and the Contracting
Officer’s Technical Representative (COTR) approved the award fee “in an effort
to get current in the process.” However, paying the contractor an award fee
without a required evaluation goes against FAR regulations governing award fees.

MARAD was also aware of serious performance problems during the first
evaluation period that should have been considered when determining the award
fee. For example, ICRC informed MARAD of construction problems encountered
by one of its subcontractors regarding significant setbacks related to damage to the
project’s open cell sheet piling and a related subcontractor claim. Nevertheless,
MARAD approved full payment of the award fee to the contractor, effectively
negating the purpose of an award fee to incentivize good performance.

While MARAD did conduct evaluations for evaluation periods 2 and 3, it did not
fully complete them in accordance with the award fee plan or with Federal
requirements. For example, MARAD’s award fee determination letters—which
are used to convey evaluation results—included only brief descriptions of the
contractor’s strengths and weaknesses and did not provide details on how the
contractor’s performance warranted the overall scores shown for each of the three
performance areas (program management, cost control, and technical schedule).
                                                                                                                     24


MARAD Allowed the Use of a Proprietary Technology Without Justification
or Independent Review of the Design
According to Federal law, a government agency generally may not award a
contract using other than full and open competition unless a written justification is
provided. 25 The FAR recognizes that specifying a supply or service available from
only one source, such as patented supplies and services, limits competition and
requires proper justification in advance. However, MARAD—without
justification— approved a $6.1-million task order for a subcontract that called for
open cell sheet pile design, 26 a proprietary technology. As such, MARAD
effectively limited competition for the task order. Although proposals were
solicited from at least six contractors, only the contractor that owned the
technology submitted a bid and was subsequently awarded the work in June 2006.
One contractor who declined to bid specifically cited concerns about patent
infringement and the uncertain reliability of the open cell sheet pile technology.

In addition, the Municipality of Anchorage’s Geotechnical Advisory Commission
(GAC) voiced objections to the design in September 2006. The GAC pointed out
that an earlier study of the design was not independent because it had been
conducted by parties directly involved in the project. However, MARAD did not
request an independent review until 2011—3 years after critical problems with the
design were discovered in 2008. According to the study released in February 2013,
three of the Port of Anchorage project’s four constructed facilities do not meet
project design requirements for normal working conditions or seismic activity
from earthquakes. The study also states that these three facilities will need to be
replaced using a suitable method. MARAD has recently indicated that alternatives
will need to be developed to replace the project’s open cell sheet pile-based
design.


MARAD Has Not Provided Effective Contract Administration for Its
Port Projects
Effective contract administration is important to protect the Government’s
interests. However, MARAD has not provided effective contract administration of
the port infrastructure projects. Specifically, MARAD did not (1) develop written
contract administration plans; (2) follow procedures to designate COTRs;
(3) properly maintain contract file documentation, including required COTR files;
or (4) conduct required evaluations of contractor performance.


25
  41 U.S.C. 3304 (formerly 41 U.S.C. 253).
26
  Open cell sheet pile is a system with flat steel sheet piles driven side by side on a curve to form the face of a wharf.
They are supported by sheet pile walls extending perpendicularly behind the face of the wharf, which is backfilled with
granular soil.
                                                                                                           25


MARAD Did Not Develop Written Contract Administration Plans
MARAD did not develop written contract administration plans for any of the port
project contracts. The FAR requires an agency to develop a written plan of action—
prior to contract award—that describes how the contract will be administered and
monitored. For example, an agency must describe how it will inspect and accept
work corresponding to the work statement’s performance criteria. According to
Federal regulations and the Office of Federal Procurement Policy (OFPP), a
contract administration plan is essential for good contract administration, as it
provides a systematic method for COTRs or other monitoring staff to evaluate the
contractor’s performance and deliverables. 27 In addition, the 2008 DOT COTR
Handbook calls for COTRs to maintain surveillance plans, contractor performance
reports, and documentation for actions taken to correct contractor performance
deficiencies.

MARAD stated that, instead of developing contract administration plans for the
port projects, it followed established oversight processes and distinct quality
assurance plans. However, MARAD did not provide documentation to support its
statements. MARAD stated that it also monitored contractor performance at the
Port of Anchorage project through weekly technical, administrative, and oversight
meetings. However, the lack of contract administration plans at the outset of the
Port of Anchorage project limited MARAD’s ability to effectively administer the
contracts. For example, MARAD contracting staff stated that some task orders
lacked clear scope and milestones, which made it impossible to monitor ongoing
activities.

MARAD Did Not Follow Procedures To Establish COTR Oversight Roles
MARAD did not follow procedures to officially designate COTRs 28 or designate
them in a timely manner. According to OFPP, the COTR plays a critical role in the
contract administration process, functioning as the “eyes and ears” of the
contracting officer. For the Port of Anchorage project, MARAD did not issue
letters for three of the four COTRs and was 5 months late in issuing a letter to the
fourth COTR. For the Port of Guam and Hawaii Harbors projects, MARAD issued
COTR designation letters late by 2 months and 11 months, respectively. Timely
designation of COTRs is important because it ensures that COTRs are aware they
have been assigned to oversee a contract and understand their oversight roles. As
of 2011, the FAR requires COTR designation prior to award. 29


27
   FAR 7.103, FAR 7.105, FAR 42.1101, and FAR 46.104—all effective at the time of award; OFPP, “A Guide to Best
Practices for Contract Administration,” 1994.
28
   TAM 1242.7104 requires DOT Operating Administrations to designate COTRs by issuing COTR designation letters,
which explain the COTRs’ specific duties and tasks.
29
   FAR 16.301.
                                                                                                               26


MARAD Does Not Maintain Adequate Contract File Documentation for Key
Decisions or Required COTR Files
MARAD did not follow FAR and DOT requirements to properly maintain contract
files for the port projects. 30 Complete contract file documentation is important
because it allows new staff to readily access and understand the contract’s
complete history and preserves prior work as a basis for future actions and
oversight. In addition to missing acquisition plans and IGCEs, MARAD’s files did
not include documentation that the FAR requires for some significant contract-
related decisions and activities. For example, while the first Port of Anchorage
contract’s statement of work called for bus terminal development, bus facilities
were not ordered. However, MARAD’s Port of Anchorage contract file lacks
documentation to justify why it spent over $35 million from FTA’s transit bus and
bus facilities appropriations for a variety of unrelated purposes, including a dock
for Coast Guard boats and project management. MARAD stated that congressional
earmark language allowed the Agency to use the FTA funds in any manner
deemed necessary for an intermodal port project. Nonetheless, MARAD’s
decision to use the FTA funding for other purposes is an important one that
warrants documentation in the contract file.

Further, MARAD did not properly maintain required COTR files for any of its
port projects. 31 The TAM requires the COTR files to be organized and provides a
framework for organizing them. However, MARAD stored contract administration
information on a common shared drive rather than a designated COTR file, and
the drive was disorganized and missing required documentation.

MARAD Did Not Conduct Contractor Performance Evaluations
Each of MARAD’s port project contracts require MARAD to prepare semiannual
contractor performance evaluations in accordance with the FAR; yet MARAD did
not comply with this requirement for any of the port projects. 32 MARAD officials
stated that the Agency did not have to conduct semiannual evaluations because the
FAR allows award fee evaluations to be used instead. The FAR does allow award
fee evaluations to be used to meet these evaluation requirements; however, the
second Port of Anchorage contract was the only MARAD port project contract
that included an award fee provision (see exhibit B for each project’s contract
30
   FAR 4.8, “Government Contract Files”; DOT COTR Program, September 2008; DOT Acquisition Policy Letter-
2008-02.
31
   TAM 1242.7104(11)(c)—Letter of Appointment states that COTRs are required to establish and maintain an
organized contract administration file to record all contractor and Government actions pertaining to the contract.
32
   The contracts contain a clause that call for semiannual evaluations to be prepared in accordance with FAR
42.1502(a)—which requires agencies to prepare interim evaluations to provide current information for contracts or
orders with a period of performance longer than one year. According to the FAR, these interim evaluations are to be
used for source selection purposes.
                                                                                 27


type). Per MARAD’s reasoning, MARAD’s contract files should have contained
evidence of award fee evaluations for all of the port contracts. However, the
Agency only performed two out of six required award fee evaluations for the
second Port of Anchorage contract. MARAD did not complete any other
evaluations—semiannual or award fee—for MARAD’s other port project
contracts.


CONCLUSION
Port infrastructure development is a relatively new responsibility for MARAD and
also an opportunity for it to be a major stakeholder in rebuilding the Nation’s
maritime infrastructure. Effective program management, oversight, and
contracting are critical to the success of this endeavor. However, challenges in
these areas contributed to significant setbacks at the Port of Anchorage project—
including construction problems, schedule delays, and cost growth. While
MARAD has begun implementing changes to improve its management of the Port
of Guam project—including better defined project responsibilities and a new
management information system—it is still in the process of developing the
congressionally mandated port program. Until MARAD strengthens its planning,
oversight, and contracting processes, ongoing and future port projects will
continue to be at risk of cost overruns and schedule delays.


RECOMMENDATIONS
We recommend that the Maritime Administrator take the following actions:

1. Develop guidance for port project management plans and organizational charts
   that outline the roles, responsibilities, and relationships of public and private
   stakeholders.

2. Consistently define and document MARAD’s oversight responsibilities for
   port infrastructure development.

3. Develop formal risk management policies and procedures consistent with
   industry best practices.

4. Implement policies and procedures for (a) analyzing and documenting
   decisions related to selecting the appropriate legal arrangement (e.g., contracts
   or assistance agreements) before obligating funds, and (b) requiring written
   agreements for payment of matching funds.
                                                                               28


5. Implement procedures to help ensure that MARAD’s contract planning efforts
   comply with Federal acquisition regulations and requirements. These
   procedures should include:
   a) establishing acquisition plans and contract administration plans in a timely
      manner, and maintaining supporting documentation for their rationale; and
   b) developing independent Government cost estimates, and validating cost
      estimates provided by entities other than MARAD.

6. Implement procedures to help ensure that MARAD’s contract award and
   execution efforts comply with Federal acquisition regulations and
   requirements. These procedures should include:
   a) awarding and terminating contracts, especially those awarded through the
      8(a) Business Development Program;
   b) reviewing and providing written justifications for the use of proprietary
      technology or other factors that may limit competition on port contracts.

7. Implement procedures to help ensure that MARAD’s management of cost-
   plus-award-fee contracts complies with Federal acquisition regulations and
   requirements. These procedures should include establishing timely award fee
   plans and properly executing those plans—including conducting award fee
   evaluations, documenting the results, and approving award fee payments.
8. Implement procedures to help ensure that MARAD’s contract administration
   and oversight efforts comply with Federal acquisition regulations and
   requirements. These procedures should include:
   a) issuing timely contracting officer’s technical representative (COTR)
      designation letters with appropriate descriptions of their roles and
      responsibilities;
   b) maintaining complete contract files, including COTR files; and
   c) conducting semiannual or interim contractor performance evaluations.

9. Provide a comprehensive action plan for developing a congressionally
   mandated Port Infrastructure Development Program (PIDP), including
   milestones for incorporating each of the preceding recommendations into the
   program. The plan should also require MARAD to prepare clear and specific
   budget requests that specify how the Agency would use all Federal funding
   received for PIDP purposes.
                                                                                29


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to MARAD on April 22, 2013, and received its
response on July 10, 2013, which is included as an appendix to this report.
MARAD concurred with all nine of our recommendations.

For recommendations 1, 2, 3, 7, 8, and 9, MARAD concurred and provided
planned actions and time frames that meet the intent of our recommendations. We
consider these recommendations resolved but open pending completion of the
planned actions.

For recommendations 4, 5, and 6, MARAD concurred and provided planned
actions that partially meet the intent of our recommendations. We are requesting
additional information before we can determine if the planned actions address the
intent of these recommendations. Specifically:

For recommendation 4, MARAD committed to completing a Port Infrastructure
Program Manual by September 30, 2014, that will detail its documentation
expectations regarding matching funds agreements. However, we are concerned
with MARAD’s planned completion date for the manual because the
Administration is currently negotiating a new assistance agreement for future work
in Hawaii. We request that MARAD clarify how it will ensure appropriate
analysis and documentation for its selection of new assistance agreements until the
manual is completed. Until we receive this information, we consider
recommendation 4 open and unresolved.

For recommendation 5, MARAD committed to having an independent
procurement compliance review by August 30, 2014, after which it plans to
complete an action plan to address the issues identified. However, MARAD did
not specify whether the action plan will include implementation of procedures to
ensure compliance with the FAR in the areas of acquisition planning, contract
administration, and IGCEs, as we recommend. In addition, MARAD did not
specify a time frame by which it would complete its action plan. Accordingly, we
request that MARAD clarify whether it plans to implement procedures as part of
its action plan and provide time frames by which it will complete the action plan
and implement the procedures. MARAD, in its introductory remarks, indicated
that the contract for the Port of Guam project would remain in place; however, we
reported that MARAD has not implemented a required contract administration
plan for the project. As such, we request that MARAD clarify whether its
extensive implementation plan for the Port of Guam project will include a contract
administration plan. Until we receive this information, we consider
recommendation 5 open and unresolved.
                                                                               30


For recommendation 6, MARAD stated that it has issued guidance on SBA’s 8(a)
awards and will continue to host training sessions on SBA programs. This action
appears to address the first part of our recommendation. However, we request that
MARAD provide us a copy of the guidance, so that we can verify whether it meets
the intent of our recommendation. In addition, MARAD did not provide planned
actions to address the second part of our recommendation that MARAD
implement procedures for reviewing and providing written justification for the use
of proprietary technology and other factors that may limit competition on port
contracts. Therefore, we request that MARAD clarify whether it will implement
such procedures. Until we receive this information, we consider recommendation
6 open and unresolved.


ACTIONS REQUIRED
MARAD’s planned actions and time frames for recommendations 1, 2, 3, 7, 8, and
9 are responsive, and we consider them resolved but open pending completion of
the planned actions. We consider recommendations 4, 5, and 6 open and
unresolved. In accordance with Department of Transportation Order 8000.1C, we
request that MARAD provide additional information on recommendations 4, 5,
and 6, as described above, within 30 days of this report.

If you have any questions concerning this report, please contact Mitchell Behm,
Assistant Inspector General for Rail, Maritime, Hazmat Transport, and Economic
Analysis, at (202) 366-9970 or Mary Kay Langan-Feirson, Assistant Inspector
General for Acquisition and Procurement Audits, at (202) 366-5225. If you have
specific questions about program management, please contact Toayoa Aldridge,
Program Director, at (202) 366-2081. If you have specific questions about
contracts, please contact Ken Prather, Program Director, at (202) 366-1820.

                                        #

cc:   DOT Audit Liaison (M-1)
      MARAD Audit Liaison (MAR-392)
                                                                                31




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from May 2011 through April 2013 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Our audit objectives were to evaluate MARAD’s execution of its port
infrastructure development responsibilities. Specifically, we evaluated MARAD’s
(1) oversight and risk management of port infrastructure development projects,
and (2) oversight of port infrastructure projects’ contract planning and
administration.

To evaluate MARAD’s oversight and risk management of port infrastructure
development projects, we interviewed MARAD officials, contractor
representatives at the Port of Anchorage, the Municipality of Anchorage Mayor’s
Office, Municipal Assembly members, Port of Anchorage staff, and Alaska State
officials. We also reviewed and analyzed documentation such as MOA
agreements; statements of work; and documents pertaining to risk management,
roles, and stakeholder responsibilities. Additionally, we assessed the interagency
roles and responsibilities for port development projects and evaluated the
Agency’s efforts to identify and mitigate project risks.

To evaluate MARAD’s oversight of port infrastructure projects’ contract planning
and administration, we reviewed the Port of Anchorage project’s contract history
as a case study. We also assessed MARAD’s contracting efforts at the Hawaii
Harbors and Port of Guam projects. We reviewed the three port projects’ contract
files and subcontract files for the Port of Anchorage project. We interviewed
MARAD officials and contractor representatives at the Port of Anchorage. We
identified and reviewed relevant acquisition criteria, including the United States
Code, FAR, Transportation Acquisition Regulation (TAR), TAM, and Office of
Management and Budget (OMB) guidance, as well as MARAD’s acquisition
policies and procedures. We assessed MARAD’s acquisition planning and award
processes, including competition methods and contract type. Finally, we evaluated
MARAD’s contract administration, including mechanisms for monitoring and
quality assurance, contract actions, and oversight resources.




Exhibit A. Scope and Methodology
                                                                                                                                                                        32



EXHIBIT B. SUMMARY OF PORT PROJECT CONTRACTS
Port project                       Port of Anchorage                  Port of Anchorage                   Hawaii Harbors                     Port of Guam

Contract number                    DTMA1D03009                        DTMA1D08012                         DTMA1D09006                        DTMA1D10002
Contract award date                05/30/2003                         07/15/2008                          07/31/2009                         04/23/2010
                                                                                                                          a
Competition Used                   None—8(a) sole source              None—sole source                    Full and open                      Full and open
Period of performance              5/30/2003 - 5/31/2004              7/16/2008 - 5/31/2011               7/31/2009 - 7/31/2012              5/1/2010 - 4/4/2013
                                   plus 9 option years                plus 4 option years                 plus 4 option years                plus 4 option years
                                                 b
Maximum award value                $427 million                       $704 million                        $400 million                       $400 million
Contractor                         Koniag Services,                   Integrated Concepts and             TEC, Inc.                          EA Engineering, Science,
                                   Inc. (KSI)                         Research Corporation                                                   and Technology, Inc.
                                                                      (ICRC)
Contract type                      Firm-fixed-price and               Cost-plus-award-fee and             Cost-plus-fixed-fee and            Cost-plus-fixed-fee and
                                   indefinite delivery/               indefinite delivery/                indefinite delivery/               indefinite delivery/
                                   indefinite quantity                indefinite quantity                 indefinite quantity                indefinite quantity
Services provided                  Technical management,              Technical management,               Improvement activities to          Improvement activities to
                                   and staff support services,        and staff support services,         enhance the transportation         enhance the transportation
                                   including but not limited to:      including but not limited to:       of goods and people.               of goods and people.
                                   program , design, and              program , design, and               Services include, but are          Services include, but are
                                   construction management;           construction management;            not limited to: program,           not limited to: program,
                                   and contractor oversight           and contractor oversight            construction, and design           construction, and design
                                                                                                          management; port planning          management; port planning
                                                                                                          and preliminary design;            and preliminary design;
                                                                                                          technical management and           technical management and
                                                                                                          staff augmentation; and            staff augmentation; and
                                                                                                          contractor oversight               contractor oversight
a
    A best value process was used for the Hawaii Harbors and Port of Guam projects.
b
    The initial contract award value was $211 million; a December 2005 contract modification increased the maximum potential value to $427 million.
Source: Port of Anchorage, Hawaii Harbors, and Port of Guam project contract files




Exhibit B. Summar y of Port Project Contracts
                                                           33




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Toayoa Aldridge                         Program Director

Ken Prather                             Program Director

Aisha Evans                             Project Manager

Leslie Mitchell                         Senior Auditor

Paul Stark                              Senior Analyst

Meghann Noon                            Auditor

Meredith Howell                         Analyst

Michael Broadus                         Analyst

Tashaun Ross                            Analyst

Deanne Titus                            Analyst

Christina Lee                           Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                            34


APPENDIX. AGENCY RESPONSE

                                                         Memorandum
U.S. Department
of Transportation

Maritime
Administration

To:              Calvin Scovel III                                     Date: July 9, 2013
                 Inspector General

From:            Paul N. Jaenichen,
                 Acting Maritime Administrator

Re:              Management Response to the Office of Inspector General (OIG) Draft Report on
                 Port Development Projects and Program
______________________________________________________________________________________
The Maritime Administration (MARAD) is finalizing the development of a Congressionally-
authorized Port Infrastructure Development Program (PIDP) using contemporary best practices.
In doing so, we recognize that the approaches taken with Anchorage, Hawaii and Guam, the
three port development projects that predate the PIDP, were not consistent with current
programmatic, technical and procurement policies or practice. This is especially true as a result
of a key decision in 2003 to defer to local authorities for project management in Anchorage.

MARAD no longer operates in this manner. As problems became apparent during construction
at the Port of Anchorage Intermodal Expansion Project, MARAD reevaluated earlier policy
decisions and instituted new project oversight and management for all three projects. This
Administration has taken action to increase oversight, assign dedicated project and program
staff, and increase its level of engagement with local partners. These actions led to a revised
Memorandum of Agreement (MOA) in 2011 that required a project master plan, formalized the
project management organization, and required a MARAD presence on site. MARAD is now in
the process of terminating its involvement with the Port of Anchorage project.

Much of the OIG report focuses on the issues surrounding the Port of Anchorage project that led
up to these changes. The two other projects reviewed by the report, one in Hawaii and the other
in Guam, have been successful to-date, benefitting from the experience with Anchorage.
MARAD’s future involvement in port development will be conducted in accordance with the
parameters and procedures of the new PIDP, incorporating lessons learned from all three
projects and the comments contained in the OIG report.

MARAD Heightened Oversight on Preexisting Port Projects
MARAD no longer conducts port development projects using the practices described in the OIG
draft report relating to Anchorage, Hawaii and Guam. In each of these projects, MARAD is
successfully addressing the issues identified in the OIG report. In Hawaii, MARAD is wrapping
up its Federal contract and is negotiating an assistance agreement to administer any future




Appendix. Agency Response
                                                                                          35


Federal funding. The Federal contract in Guam will stay in place for the foreseeable future with
increased levels of risk management protections, including requirements for an extensive
implementation plan prior to construction and the use of dual-obligation performance bonds for
subcontractors to protect the Federal interest in the project. For the Port of Anchorage
Intermodal Expansion Project, procurements have been the responsibility of local authorities
since June 1, 2012, because there is no Federal funding remaining.

Each of these three port projects has produced significant benefits. In Hawaii, the Pier 2
Passenger Terminal Enhancement Project was completed and dedicated on June 20, 2012. Of
note, the Historic Hawaii Foundation awarded the project a Preservation Media Honor on

May 30, 2013. Hawaii also completed improvements to Hilo Harbors and the project has been
recognized as one of the largest job creators in the state. In Guam, construction has just begun,
with new administration offices and a lighting improvement project already completed. In May
2013, Congresswoman Madeleine Bordallo of Guam sent a letter of appreciation to the
Secretary of Transportation for the work completed on the project to date. In Alaska, 57 acres of
new land were created and a barge berth was successfully constructed. This new land area has
been used as a laydown area for a major energy project. Additionally, a two-mile haul road was
completed for Joint Base Elmendorf-Richardson as well as a floating pier facility for the U.S.
Coast Guard.

Port Infrastructure Development Program Employs Best Practices
In the Fiscal Year (FY) 2010 National Defense Authorization Act (NDAA), Congress directed
MARAD to implement a nationwide program for the improvement of port infrastructure. To
date, no funding has been appropriated for this new program, although $2 million has been
requested in the President’s 2014 budget. Further, the authorizing language is clear that the
projects in Anchorage, Hawaii and Guam are to be kept separate and distinct from this program.

MARAD developed a conceptual framework for the new program, based on lessons learned
from previous experience and best practices, which will be implemented subject to the
availability of funding. In contrast to the three projects previously mentioned in which MARAD
focused on administering funds or the construction phase of projects, the new program places
the greatest emphasis on: a) stakeholder engagement, b) planning and c) financial strategies. In
the new program, project or construction management will be a tool used only rarely in cases
where the Federal government has both a large stake in a project and when there are well-
documented compelling reasons for that level of involvement and risk. The new program will
assist ports in planning infrastructure improvements, engaging public and private stakeholders
and leveraging the existing financial mechanisms (both public and private) to fund the
modernization of our Nation’s ports.

Procurement Review to Assess Compliance with Federal Acquisition Regulations
Due to the nature and extent of procurement related concerns identified in the OIG report
associated with the three port projects, MARAD will complete a comprehensive review of
compliance with Federal Acquisitions Regulations (FAR) for the procurement office. While a
number of the issues relate to decisions that occurred a decade ago under a previous statutory
and regulatory regime, the review is intended to confirm that deficiencies have been corrected,




Appendix. Agency Response
                                                                                               36


any remaining issues will be addressed and lessons learned will be captured. MARAD is
working with the Department of Transportation’s Senior Procurement Executive to oversee an
independent compliance review to identify any persisting compliance issues, evaluate their
extent and identify a plan of action and milestones to rectify them. Separately, MARAD has
begun reviewing its acquisition guidance and processes and will update its guidance and
processes as necessary to ensure compliance with the FAR. This will include a review and
updates to the MARAD Acquisition Guidance (MAG) notes and other internal processes with an
expected completion by December 2013.


OIG RECOMMENDATIONS AND MARAD RESPONSES:
Recommendation 1: Develop guidance for port project management plans and organizational
charts that outline the roles, responsibilities and relationships of public and private stakeholders.

Response: Concur. As indicated above, MARAD is establishing, through its Port
Development Program, a fundamentally new approach to the agency’s involvement in Port
projects. In developing this program, which has been authorized, but not yet funded, MARAD
will issue a Port Infrastructure Program Manual that will provide agency-specific guidance for
project management plans. It will also identify specific roles, responsibilities and relationships
of public and private stakeholders. This guidance will specify features unique to port
development projects while implementing industry standards with a distinct emphasis on scope,
schedule and budget for the projects. To meet this goal, MARAD will utilize best practices
learned from previous experience, other Federal agencies and the construction and project
management industry. MARAD intends to complete this manual by September 30, 2014.

Recommendation 2: Consistently define and document MARAD’s oversight responsibilities
for port infrastructure development.

Response: Concur. As indicated above, a Port Infrastructure Program Manual is being
developed for the Port Development Program. The program manual will include a set of clearly
delineated responsibilities for each participant in a given project, and will include specific
expectations for the level of Federal involvement and MARAD’s oversight responsibilities.
MARAD intends to complete this manual by September 30, 2014.

Recommendation 3: Develop formal risk management policies and procedures consistent with
industry best practices.

Response: Concur. As indicated in response to Recommendation 1, a Port Infrastructure
Program Manual is being developed for the Port Development Program. The program manual
will include a set of risk management policies consistent with previous lessons learned, along
with Federal and commercial best practices. MARAD intends to complete this manual by
September 30, 2014.




Appendix. Agency Response
                                                                                            37


Recommendation 4: Implement policies and procedures for (a) analyzing and documenting
decisions related to selecting the appropriate legal arrangement (e.g., contracts or assistance
agreements) before obligating funds, and (b) requiring written agreements for payment of
matching funds.

Response: Concur. From the project management perspective, documentation expectations
will be included as part of the Port Infrastructure Program Manual, expected to be completed by
September 30, 2014. The manual will also detail expectations with regard to planning and
executing agreements with regard to matching funds.

Recommendation 5: Implement procedures to help ensure that MARAD’s contract planning
efforts comply with Federal acquisition regulations and requirements. These procedures should
include:

        a. Establishing acquisition plans and contract administration plans in a timely manner,
           and maintaining supporting documentation for their rationale; and

        b. Developing independent Government cost estimates, and validating cost estimates
           provided by entities other than MARAD.

Response: Concur. MARAD recognizes there were issues with execution of procurement
processes particularly with regard to the Port of Anchorage Intermodal Expansion Project.
MARAD will not handle future projects in the same or a similar manner. Rather, MARAD will
conduct its procurement activities in full compliance with the FARs. MARAD is working with
the Department’s Office of the Senior Procurement Executive to arrange for an independent
procurement compliance review. The specific procurement issues of planning cost estimations,
administration and documentation will be included as focus areas in the review. Subsequent to
the review, an action plan will be completed to address any procurement management issues
identified. This review will be completed by August 30, 2014.

Recommendation 6: Implement procedures to help ensure that MARAD’s contract award and
execution efforts comply with Federal acquisition regulations and requirements. These
procedures should include:

        a. Awarding and terminating contracts, especially those awarded through the 8(a)
           Business Development Program;

        b. Reviewing and providing written justifications for the use of proprietary technology
           or other factors that may limit competition on port contracts.

Response: Concur. As part of the reform of acquisitions procedures and guidance, MARAD
will focus on the award and termination of contracts through the 8(a) Business Development
Program as well as written justifications for other than full-and-open competition. Earlier this
year, the MARAD Small Business Specialist issued guidance to all contract specialists on the
Department’s partnership agreement with the Small Business Administration (SBA) on 8(a)
awards, and MARAD hosted a training session for the mode’s acquisition staff on SBA
programs. MARAD will schedule a follow up training session with S-40 on the 8(a) program to
be completed by November 2013. In addition, MARAD will hold formal training sessions on
FAR requirements on other than full and open competition requirements by December 31, 2013.




Appendix. Agency Response
                                                                                          38


Recommendation 7: Implement procedures to help ensure that MARAD’s management of
cost-plus-award-fee contracts complies with Federal acquisition regulations and requirements.
These procedures should include establishing timely award fee plans and properly executing
those plans—including conducting award fee evaluations, documenting the results, and
approving award fee payments.

Response: Concur. OST recently issued guidance for award fee contracts. MARAD will
complete formal training on this guidance by November 2013. In addition, MARAD will
increase the level and extent of oversight by defining specific procedures for informing senior
management, including the Chief Counsel and the Executive Director, of any award fee
payments. These procedures will be included in a MAG note expected to be issued by February
28, 2014.

Recommendation 8: Implement procedures to help ensure that MARAD’s contract
administration and oversight efforts comply with Federal acquisition regulations and
requirements. These procedures should include:

       a. Issuing timely contracting officer’s representative (COR) designation letters with
          appropriate descriptions of their roles and responsibilities;

       b. Maintaining complete contract files, including COR files; and

       c. Conducting semiannual or interim contractor performance evaluations.

Response: Concur. (A) All individuals appointed by the Contracting Officer to support
contract administration will be issued designation letters providing appropriate descriptions of
their roles and responsibilities as CORs. The process is in place to ensure timely designation
and detailed guidance will be implemented in the forthcoming updated MARAD Acquisition
Guidance (MAG) note, which will be issued by November 30, 2013. (B) The contracts in
Hawaii, Guam and Anchorage underscore the importance of proper documentation and record
keeping on these complex acquisitions. MARAD has adopted the Department’s standard COR
appointment letter which sets forth the required documents in a COR file and will issue updated
guidance on the maintenance of complete contract and COR files in the November 30, 2013
MAG note. The guidance will update and refine previous guidance and reinforce the lessons
learned. (C) As required by contract and consistent with the FAR, MARAD will conduct
semiannual or interim contractor performance evaluations. Interim evaluations of Hawaii and
Guam contracts will be completed by October 31, 2013. Guidance regarding the evaluations as
well as when they are required will be issued in an August 30, 2013 MAG note.

Recommendation 9: Provide a comprehensive action plan for developing a congressionally
mandated Port Infrastructure Development Program (PIDP), including milestones for
incorporating each of the preceding recommendations into the program. The plan should also
require MARAD to prepare clear and specific budget requests that specify how the Agency
would use all Federal funding received for PIDP purposes.

Response: Concur. MARAD has been working on establishing a PIDP since 2010 and will
incorporate OIG recommendations into the program based on appropriate milestones. MARAD
will provide the action plan before February 28, 2014.




Appendix. Agency Response
                                                                                         39


_____________________________________________________________________________

I appreciate the opportunity to offer additional perspective on the OIG draft report and would
like to thank you for the professionalism of the OIG Staff and the detailed recommendations
developed in conducting this review. Please contact Joel Szabat, MARAD Executive Director,
at (202) 366-5823 with any questions or requests for additional assistance.




Appendix. Agency Response
